Page 2

RULE 33.1(h) CERTIFICATE OF COMPLIANCE
No. 19-974
William T. Schmitt, Chad Thompson, and Debbie Blewitt,
Petitioners,
v.
Frank LaRose, Ohio Secretary of State,
Respondent.

As required by Supreme Court Rule 33.1(h), I, Mark R. Brown, certify that
the Reply Brief of Petitioner in the foregoing case contains 2708 words, excluding
the parts of the document that are exempted by Supreme Court Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on May 4 , 2020.

Oe
K BROWN
CAPITAL UNIVERSITY LAW SCHOOL
303 E. BROAD STREET
COLUMBUS, OH 43215
(614) 236-6590
